COCKLE

2311 Douglas Street 5 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923 8
1-800-225-6964 Web Site
(402) 342-2831 www. cocklelegalbriefs.com

Fax: (402) 342-4850
No.

AMAZON.COM, INC.,
and AMAZON LOGISTICS, INC.,
Petitioners,
Vv.
BERNARD WAITHAKA,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and.10 point for the
footnotes, and this brief contains 5102 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of January, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A
A RENEE J. GOSS 9. ( bes dima 7 Ch Lh z

 

My Comm. Exp. September 5, 2023

Affiant 40464

 

Notary Public
